No. 19In the

Supreme Court of the United States

THE ESATE OF SWANNIE HER, et al.,
Petitioners,
v.
CRAIG HOEPPNER, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Robert E. Barnes
Counsel of Record
Barnes Law, LLP
601 South Figueroa Street, Suite 4050
Los Angeles, CA 90017
(213) 330-3341
robertbarnes@barneslawllp.com
Counsel for Petitioners

293402

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
This petition poses two questions: first, whether the
state-created danger doctrine provides a due process
claim; and second, what level of culpable intent imposes
liability on state created dangers that inflict harm?
1.

If a state creates a danger that causes the loss
of life, liberty or property, is it a violation of the
due process clause of the Fourteenth Amendment
protecting life, liberty and property from state
deprivation without due process of law?

2.

If a state creates a danger that causes the loss of
life, liberty or property, is the state liable under
the Fourteenth Amendment if the state knew of
or were aware of the danger and failed to take
reasonable protections against the danger, even
if they did not act with criminal intent to cause
injury?

ii
PARTIES TO THE PROCEEDINGS
Petitioners in this proceeding are as follows: The
Estate of Swannie Her, Connie Her, Chong Her, Ekin Her
(a minor), Jasmine Her (a minor), Alexander Hernandez (a
minor), Evangelin Her (a minor), Chuexng Her (a minor),
Thvon Her (a minor), Jovanyel Ramirez-Chang (a minor),
Jhovanny Ramirez-Chang (a minor), and Chueve Her (a
minor).
Respondents in this proceeding are as follows: The
City of West Bend, Kraig Sadownikow, Craig Hoeppner,
Ryan Zamrow, Brogan Zochert, Michela Millard, Cassidy
Holbrook, Noah Wilkens, Madeline Kaphingst, Abigail
Ehmke, and the League of Wisconsin Municipalities
Mutual Insurance Company.

iii
RELATED CASES
Estate of Swannie Her, et al. v. Kraig Sadownikow,
et al., No. 17-CV-1015 U.S. District Court for the Eastern
District of Wisconsin. Judgement entered on October 30,
2018.
The Estate of Swannie Her, et al. v. Craig Hoeppner,
Parks Director for the City of West Bend, et al., No.
18-3524 U.S. Court of Appeals for the Seventh Circuit.
Judgement entered September 26, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 4
I.

The Law In This A rea is Hopelessly
Confused, with Circuits in Deep Conflict
As To Whether A State-Created Danger is
Even a Violation of Due Process  . . . . . . . . . . . . . 6

v
Table of Contents
Page
II. The Circuits Conf lict on the Relevant
L evel of I nt ent for St at e - Cr e at e d
Danger Claims, Often in Conflict with
this Court’s Precedents . . . . . . . . . . . . . . . . . . . . 13
III. This Court Can Provide Clarity in an
A rea of Law that Impacts Citizenry
and States Nationwide . . . . . . . . . . . . . . . . . . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vi
TABLE OF APPENDICES
Page
A ppendi x A — opinion of the
united states court of appeals
for the seventh circuit ,
	filed october 18, 2019 . . . . . . . . . . . . . . . . . . . . 1a
Appendix b — decision and order
of the united states district
court for the eastern district of
	wisconsin, filed october 30, 2018  . . . . . 12a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Anderson as trustee for next-of-kin of Anderson
v. City of Minneapolis,
934 F.3d 876 (8th Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 8
Bracken v. Okura,
869 F.3d 771 (9th Cir. 2017)  . . . . . . . . . . . . . . . . . . . . . 7
Butera v. District of Columbia,
235 F.3d 637 (D.C. Cir. 2001) . . . . . . . . . . .  7, 14, 16, 17
County of Sacramento v. Lewis,
523 U.S. 833 (1998) . . . . . . . . . . . . . . . . . . . . . . . passim
DeShaney v.
Winnebago County Dept. of Social Services,
489 U.S. 189 (1989)  . . . . . . . . . . . . . . . . . . . . . . . passim
Estate of Romain v.
City of Grosse Pointe Farms,
935 F.3d 485 (6th Cir. 2019) . . . . . . . . . . . . . . . . . . 8, 10
Estate of Her v. Hoeppner,
939 F.3d 872 (7th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . . 1
Henry A. v. Willden,
678 F.3d 991 (9th Cir. 2012) . . . . . . . . . . . . . . . . .  14, 15

viii
Cited Authorities
Page
Irish v. Maine,
849 F.3d 521 (1st Cir. 2017)  . . . . . . . . . . . . . . . . . . 9, 19
Kneipp v. Tedder,
95 F.3d 1199 (3d Cir. 1996) . . . . . . . . . . . . . . . . . . . 9, 15
K.W. v. Lee County School Bd.,
67 F. Supp. 3d 1330 (M.D. Fla. 2014) . . . . . . . . . . . . . .1
L.W. v. Grubbs II,
92 F.3d 894 (9th Cir. 1992) . . . . . . . . . . . . . . .  16, 17, 19
Munger v. City of Glasgow,
227 F.3d 1082 (9th Cir. 2000) . . . . . . . . . . . . . . . . . . . 19
Okin v.
Village of Cornwall-On-Hudson Police Dept.,
577 F.3d 415 (2d Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . 8
Pena v. DePrisco,
432 F.3d 98 (2d Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . 14
Penilla v. City of Huntington Park,
115 F.2d 707 (9th Cir. 1997) . . . . . . . . . . . . . . . . . . . . 19
Pinder v. Johnson,
54 F.2d 1169 (4th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 7
Radecki v. Barela,
146 F.3d 1227 (10th Cir. 1998) . . . . . . . . . . . . . . . . . .  17

ix
Cited Authorities
Page
Residents Against Flooding v.
Reinvestment Zone Number Seventeen,
City of Houston, Texas,
260 F. Supp. 3d 738 (S.D. Tex. 2017) . . . . . . . . . . . . . 11
Rios v. City of Del Rio,
444 F.3d 417 (5th Cir. 2006) . . . . . . . . . . . . . . . . . . . . . 9
Sauers v. Borough of Nesquehoning,
905 F.3d 711 (3d Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . 9
Spady v. Bethlehem Area School Dist.,
800 F.3d 633 (3d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . 7
Stiles ex. Rel. D.S. v. Grainger County, Tenn.,
819 F.3d 834 (6th Cir. 2016)  . . . . . . . . . . . . . . . . . . . . . 9
T.D. v. Patton,
868 F.3d 1209 (10th Cir. 2017) . . . . . . . . . . . . . . . . . . 10
Turner v. Thomas,
930 F.3d 640 (4th Cir. 2019) . . . . . . . . . . . . . . . . . . . 7, 9
Uhlrig v. Harder,
64 F.3d 567 (10th Cir. 1995) . . . . . . . . . . . . . . . . . . . . 10
Weiland v. Loomis,
938 F.3d 917 (7th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . . 8

x
Cited Authorities
Page
Wood v. Ostrander,
879 F.2d 583 (9th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 19
Statutes
U.S. Const. Amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . 15
U.S. Const. Amend. XIV, § 1 . . . . . . . . . . . . . . . . . . 1, 6, 20
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities
David Pruessner, The Forgotten Foundation
of State- Created Danger Claims,
20 Rev. Litig. 357 (2001) . . . . . . . . . . . . . . . . . . . . . . . . 8
Erwin Chemerinsky, The State-Created Danger
Doctrine, 23 Touro L. Rev. 1 (2007) . . . . . . . . . . . . . . 8

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Estate of Swannie Her, et al. respectfully
petition for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Seventh Circuit
OPINIONS BELOW
The Seventh Circuit opinion below is published at 939
F.3d 872 and attached at Appendix 1a. The district court’s
opinion is unpublished attached at Appendix 12a.
JURISDICTION
The Federal Circuit entered judgment on September
26, 2019. The Court has jurisdiction under 28 U.S.C.
1254(1)
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1:

United States Constitution, Amendment XIV, Section
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
state wherein they reside. No state shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.

2
STATEMENT
The defendants created a dangerous attraction
then invited the public to pay to partake in it, promised
safety for young children, then failed to take the most
basic reasonable precautions for the protection of young
children, that led to the death of a seven-year-old girl on
a summer day in Wisconsin. The defendants disclaimed
responsibility on grounds the state-created-danger
doctrine did not apply to their conduct.
The defendants created a man-made aquatic attraction
called the Regner Park Pond for the public that they
promoted as safe for small children to swim in. App., infra,
13a. The defendants promoted the swimming pond as a
children’s play area and charged parents to allow their
children access. App., infra, 3a.The defendants marked
an area for swimming and promised to provide trained
lifeguards focused on protecting small children to justify
the fee charged and expenditure of tax resources for the
man-made aquatic attraction. Id.
On June 11, 2016, seven-year old Swannie Her’s
mother paid for her entrance to the park. App., infra, 14a.
Unbeknownst to Swannie, the area of the pond marked
for public swimming actually had hidden drop-offs just a
few feet in that could easily drown her, and the pond was
too murky to see these drop-offs. App., infra, 22a. This
“deep well” was known to the defendant, but not marked
or advertised to the public. Id. Additional safeguards
ignored by the defendants that day included lifeguards
monitoring access to the “deep well” area of the pond,
lifeguards requiring swim tests and visible wristbands
before allowing young children access to the swimming

3
pond, and lifeguards monitoring small children swimming
at all times. App., infra, 3a.
After entry into the pond, Swannie slipped underwater
unnoticed by the lifeguards, and Swannie’s lifeless body
was found only a few feet from the most dangerous area
of the Murky pond, a “deep well”, at approximately 5:55
PM by an adult patron walking through chest-high murky
water. App., infra, 4a. Swannie had been in and out of
the water for approximately 40 minutes without a single
lifeguard noticing her before she died. Id.
Defendants’ own expert admitted that the state
created an “inherently dangerous” activity for young
children. App., infra, 7a. Additionally, uncontroverted
evidence showed Defendants violated their own most
basic rules for protecting the safety of young children.
Lifeguards were required to enforce the rules: 1) that
all swimmers wear wristbands and 2) that an adult must
accompany children under the age of five at all times and
must be within arm’s reach. Those two rules were in place
to ensure the safety of children. App., infra, 3a-5a, 9a,
22a. If a child is in the water and is five years or younger
with no adult within arm’s length, the lifeguards must
remove the child from the water. App., infra, 23a. No
swimmer was allowed in water over their arm pits without
a swim test wristband. App., infra, 3a-4a. The swim
test wristband was only issued to patrons who passed a
mandatory swim test; child or adult. Id. Watching small
children was a mandatory requirement for all lifeguards
at the Murky pond. App., infra, 9a, 22a.
United States Magistrate Judge Nancy Joseph issued
the lower court’s decision and order granting Defendants’

4
motion for summary judgment on October 30, 2018. App.,
infra, 27a. The District court found as a matter of law
that “the evidence is insufficient for a jury to conclude
that the defendants created the danger to Swannie” App.,
infra, 21a. The court further found “[t]he evidence is also
insufficient to show that the defendants increased the
danger to Swannie.” App., infra, 22a. Finally, the court
concluded that Plaintiffs had not shown conduct on the
part of the state that shocks the conscience. App., infra,
25a.
Finding that there was no Constitutional injury, the
lower court dismissed Plaintiffs’ Constitutional claims,
and declined to exercise jurisdiction over supplemental
state law claims, dismissing them without prejudice. App.,
infra, 27a.
The Seventh Circuit for the Court of Appeals affirmed
the District Court’s decision, finding that a state-createddanger did not apply to state-created attractions outside
of exceptional circumstances, and constricted statecreated-danger claims to those with evidence of criminal
intent targeting a selective class of individuals. App.,
infra, 7a-11a.
REASONS FOR GRANTING THE PETITION
The state created a dangerous, murky pond, with
sudden, hidden drop-offs, invited small children to swim
there and charged their parents for the privilege, then
ignored their own rules that were in place to ensure the
safety of small young children in the pond, and a child
died. The state promised this swimming pond as a safer
alternative, and this justified the expense of both tax

5
moneys used and private charges incurred. The pond was
a danger to young children. The state created it. Yet, the
Seventh Circuit says that can never be a state created
danger?
The twin decisions that shape this area of law are
DeShaney and Sacramento. DeShaney v. Winnebago
County Dept. of Social Services, 489 U.S. 189 (1989);
County of Sacramento v. Lewis, 523 U.S. 833 (1998).
As this court established in DeShaney, states are not
responsible for someone’s loss of life, liberty or property
as long as they “played no part in their creation, nor did
it do anything to render him any more vulnerable to
them.” DeShaney, 489 U.S., at 201. Just as DeShaney
only imposed two elements for a state-created danger
doctrine, coequally and concomitantly, this Court outlined
a ranked structure of culpable intent for cases including
state-created-danger cases that mirrored the correlation
between intent and culpability in tort and criminal law
alike. County of Sacramento, 523 U.S. at 833. Notably,
neither an intent to harm nor conscious disregard of a
known risk are required levels of intent for state created
dangers that do not result from emergency-response
individual issues where “hurried” decision making is
not involved. Yet, the decision below required invidious
criminal intent targeting a select class of individuals
before a state created danger that takes a life could even
be considered a due process violation.
In the published case below, the Seventh Circuit limited
the state-created danger theory of due process liability
to those cases where a plaintiff could prove specifically
identified individuals acted with criminal intent. App.,
infra, 7a. Thus, even where a state created a danger that

6
caused the loss of life, the Seventh Circuit determined no
liability could attach as a matter of law, unless the family
of the dead child could prove a specific individual employed
by the state criminally intended to see the child die. The
decision below imposed additional elements on the statecreated danger doctrine, contradicting the language of
this court in DeShaney, and imposed the highest known
intent standard for state-created-dangers, directly
contradicting the plateaued structure of culpable intent
set by this Court in Sacramento.
The Circuits remain widely and wildly split on this
area of law, with some Circuits refusing to recognize a
state created danger can ever violate the due process
protections of individuals’ life, liberty and property,
while other Circuits conflict on what elements exist to
the claim, and further conflict on what level of culpable
intent is required, and conflict on whether certain conduct
constitutes such level of culpable intent. This chaos of
confusion creates a tornado across the legal landscape, to
the detriment of citizens, states, and courts alike. Clarity
calls for this court to grant certiorari to resolve.
I.

The Law In This Area is Hopelessly Confused, with
Circuits in Deep Conflict As To Whether A StateCreated Danger is Even a Violation of Due Process

The Fourteenth Amendment’s Due Process clause
protects citizens from state harm, by guaranteeing
“nor shall any state deprive any person of life, liberty or
property without due process of law.” U.S. Const. Amend.
XIV, § 1. This protects a person’s life, liberty and property
from known or obvious state-created risks of harm the
state fails to take reasonable steps to protect against. The

7
state deprived Swannie Her of her life when it invited her
to a state-created, man-made swimming pond declared
safe for her swimming, when in fact it was a death trap
for little girls just like her. Is that due process of law?
The Circuits split, and this area of law is in chaos.
Some courts doubt whether the state-created danger
doctrine applies at all. Some courts doubt whether the
state-created danger doctrine applies to actions that do
not involve private violence by third parties. None agree on
the legal standard governing state-created danger claims.
As some Circuits articulate it, consonant to this
court’s language in Deshaney, a state is liable for failing
to protect an individual from harm when the state creates
the danger. Turner v. Thomas, 930 F.3d 640 (4th Cir.
2019); Spady v. Bethlehem Area School Dist., 800 F.3d
633 (3d Cir. 2015); Bracken v. Okura, 869 F.3d 771 (9th
Cir. 2017). The D.C. Circuit found that “a key requirement
for constitutional liability is affirmative conduct by the
State to increase or create the danger that results in
harm to the individual.” Butera v. District of Columbia,
235 F.3d 637, 650 (D.C. Cir. 2001). “When the state itself
creates the dangerous situation that resulted in a victim’s
injury, the absence of a custodial relationship may not
be dispositive. In such instances, the state is not merely
accused of a failure to act; it becomes much more akin to
an actor itself directly causing harm to the injured party.”
Pinder v. Johnson, 54 F.2d 1169, 1177 (4th Cir. 1995). The
“state created danger” finds “state actors may be liable
for failing to protect injured parties from dangers which
the state actors either created or enhanced.” Turner,
930 F.3d, at 644. The Second Circuit defined it as “where
the state actors actually contributed to the vulnerability

8
of the plaintiff” to a known danger. Okin v. Village of
Cornwall-On-Hudson Police Dept., 577 F.3d 415, 428
(2nd Cir. 2009). Indeed, “the state owes a duty to protect
individuals if it created the danger to which the individuals
are subjected.” Anderson as trustee for next-of-kin of
Anderson v. City of Minneapolis, 934 F.3d 876, 881 (8th
Cir. 2019). This comports with fellow scholastic treatments
of the issue. See Erwin Chemerinsky, The State-Created
Danger Doctrine, 23 Touro L. Rev. 1 (2007). The doctrine
puts force to the original promise of the Fourteenth
Amendment and the original intent of the civil rights
laws. See David Pruessner, The Forgotten Foundation of
State-Created Danger Claims, 20 Rev. Litig. 357 (2001)
(state-created-danger doctrine was precisely what the
original civil rights laws were intended to protect against).
Depending on the Circuit, the elements of such a statecreated-danger claim may be two, three, four, five or six.
The Circuits widely and wildly digress. Fellow jurists
note the confusion surrounding this area of law. As one
justice notes, different courts “adopt different versions of
a state-created danger theory of substantive due process.”
Estate of Romain v. City of Grosse Pointe Farms, 935
F.3d 485, 493 (6th Cir. 2019) (Murphy, J., concurring).
Fellow jurists describe the “guideposts for responsible
decision-making in this unchartered area are scarce
and open-ended.” Id. The Seventh Circuit even doubted
whether the lower court’s decision here comported with
Supreme Court precedent. See Weiland v. Loomis, 938
F.3d 917, 920 (7th Cir. 2019).
Three Circuits admit they imposed such high burdens
on state-created danger claims that they literally have
“never issued a published opinion recognizing a successful

9
state-created danger claim.” Turner v. Thomas, 930 F.3d
at 646; see also Irish v. Maine, 849 F.3d 521, 526 (1st
Cir. 2017); Rios v. City of Del Rio, 444 F.3d 417, 422 (5th
Cir. 2006). The First Circuit acknowledged the “possible
existence of the state-created danger theory” but noted it
had “never found it applicable to any specific set of facts.”
Irish, 849 F.3d at, 526. The Fifth Circuit raised doubts as
whether any state-created danger even exists at all. Rios,
444 F.3d, at 422. Assuming a Circuit has acknowledged
the existence of the claim and actually applied it to a set
of facts, they cannot concur on the elements of the claim.
The First Circuit suggested that a state-created
danger known to the state to risk a person’s life that does,
in fact, take a life would still be “due process” if the state’s
actions do not also “shock the conscience of the court.”
Irish, 849 F.3d, at 526.
The Third Circuit employed its own four-part test. See
Kneipp v. Tedder, 95 F.3d 1199, 1207 (3d Cir. 1996). The
Third Circuit’s test focused on state use of its authority
to create the harm, a standard not followed by many
other Circuits. Id. The Third Circuit, in other cases,
identified four elements to a state-created danger cause
of action, though it included either/or clauses within its
four elements that often make it sound like five or six
elements. See Sauers v. Borough of Nesquehoning, 905
F.3d 711, 717 (3d Cir. 2018).
The Sixth Circuit added a requirement that there
be a “special danger” to a specific individual. See Stiles
ex. Rel. D.S. v. Grainger County, Tenn., 819 F.3d 834
(6th Cir. 2016). The Sixth Circuit’s three-element test for
state-created-danger causes of action added this “special

10
danger” requirement that “placed the plaintiff specifically
at risk, as distinguished from a risk that affects the
public,” a test rooted in inapposite equal protection law,
not due process law. Estate of Romain v. City of Grosse
Pointe Farms, 935 F.3d 485, 491-492 (6th Cir. 2019). Yet,
the Seventh Circuit adopted it here in this case below.
The Tenth Circuit imposed a five-part test in one case,
and then a six-part test in another case. Uhlrig v. Harder,
64 F.3d 567 (10th Cir. 1995); see also T.D. v. Patton, 868
F.3d 1209, 1222 (10th Cir. 2017). The Tenth Circuit imposed
a range of additional elements for state-created-danger
claims: creating a danger that deprives an individual of
their life, liberty or property without due process of law
is not sufficient even when it is a known danger the state
fails to remediate or protect the individual from. The
Tenth Circuit requires the plaintiff be of a “limited and
specifically definable group” (as the Seventh Circuit added
here), that the danger be a “substantial risk” of a “serious,
immediate and proximate harm,” that defendants acted
with the level of culpable intent this court limited to the
“hurried decision” context, and that, even then, such
conduct is not actionable or remediable unless the court
subjectively concludes “such conduct, when viewed in total,
is conscience shocking.” T.D. v. Patton, 868 F.3d, at 1222.
The Tenth Circuit, like the decision here, ignored this
Court and other Circuits by determining that “permitting
unreasonable risks” of a danger created by the state does
not qualify as a due process violation even if it takes a life.
See T.D. v. Patton, 868 F.3d, at 1222.
Districts within the Eleventh Circuit concluded the
state-created danger cause of action no longer exists and
was replaced by a vague “shock the conscience” cause

11
of action. K.W. v. Lee County School Bd., 67 F.Supp.3d
1330, 1336 (M.D. Fla. 2014). “The state-created danger
exception has since been replaced by the standard
employed” for general “conscience shocking” conduct. Id.
Under this interpretation, even state-created dangers that
cause harm with deliberate indifference by state actors
is not actionable unless the conduct is “more egregious
than the deliberate indifference” standard. Id., at 1339.
The Circuits have not articulated a consistent
standard to state-created dangers that do not involve
protecting citizens from private violence by non-state
actors. Courts within the Fifth Circuit make a state less
culpable for the dangers it creates than the actions of nonstate actors and suggested state-created dangers never
constitute a due process violation. Residents Against
Flooding v. Reinvestment Zone Number Seventeen, City
of Houston, Texas, 260 F.Supp.3d 738 (S.D. Tex. 2017).
This court only excused citizen dangers when the state
“played no part in their creation, nor did it do anything to
render [the citizen] any more vulnerable to [the danger].”
DeShaney, 489 U.S. at, 201. This Court never said if a
state created the danger itself and took affirmative acts
that rendered a citizen more vulnerable to that danger,
then the state is still completely immune as a matter of
law unless the harmed citizen can prove a specifically
identified state actor criminally intended the harm caused.
The state created danger doctrine parallels the same
public policy theories of liability that undergird the invited
nuisance doctrine, except for a higher level of culpability.
It is like the neighbor who creates the invited nuisance for
the neighbor’s kids, but then solicits the kids to the invited

12
nuisance, promises the parents safety, and charges the
kids money for the privilege. To make it analogous to the
case here, it would be like building a sandlot advertised as
safe for young kids, then filling parts of it with quicksand,
and inviting the neighbors’ children to partake at a price,
then disclaiming responsibility for their death.
A key here is that a parent will not take her child
to a man-made beach with murky water with a bad,
impossible-to-see drop-off; by contrast, they will take
their child to the state-created, state-promoted, stateprotected fee-charging swimming pond the state promises
is safe for their young children to swim in.
West Bend created a dangerous, murky pond, invited
the public to swim there for a fee, posted lifeguards to give
the illusory appearance of safety, and drafted mandatory
policy/procedures to ensure the safety of its patrons with
a special emphasis on small children – not a single one of
which were followed by the young lifeguards in relation
to Swannie Her’s drowning death.
West Bend, besides creating the murky pond and
facilitating the activity, further increased the danger by
(1) filling the pond with muddy water with virtually no
visibility and failing to take any action (such as dredging
the water or placing a sand pond-bed) to alleviate the
visibility hazard, (2) failing to follow mandatory policy/
procedures, designed to ensure the safety of its patrons
with a special emphasis on small children, in relation
to Swannie Her’s drowning death, (3) failing to call
for additional lifeguard support when a lifeguard was
overwhelmed and unable to scan her zone of coverage
effectively, (4) providing an aura of safety by posting

13
lifeguards but failing to execute to most basic lifeguard
duties such as observing Swannie Her a single time over
the 40 minutes she was in and out of the water with her
siblings or recognizing and removing Swannie (a small
child outside arm’s reach of an adult) from the water, (5)
failing to post the Murky pond’s rules in a centralized,
conspicuous place or announce them to patrons, and (6)
failing to address the hazard of a hidden depression or
drop-off in an area open to small children who had not
been swim-tested. App., infra, 3a,7a, 9a, 21a-24a, 31a.
Injuries resulting from dangers created and increased by
the state are precisely the sort of state-action deprivation
that the state-created danger theory is meant to address.
If the state can skate in this case, then this incentivizes
the state to create more dangerous amusements it
promotes as safe and charges the public for without
consequence for creating the inviting nuisance from hell.
How is it the state can be responsible for putting a person
near a dangerous person but is not responsible when it
creates the danger itself, and refuses to follow any of
its elemental rules to protect one of the most vulnerable
populations from known risk of harm the state created?
II. The Circuits Conflict on the Relevant Level of
Intent for State-Created Danger Claims, Often in
Conflict with this Court’s Precedents
The Circuits also cannot concur on what intent
standard to apply. Some circuits require “deliberate
indifference”, but do not agree on what defines deliberate
indifference in the state-created danger context. For
example, several circuits apply deliberate indifference in
the same language as this Court – when a state creates

14
a danger to an individual, and fails to take reasonable
precautions against that danger, then that is deliberate
indifference. Other circuits apply deliberate indifference
as an additional element, but only as applied to the danger
posed, not the individual harmed. The Seventh Circuit
stands out in immunizing state created dangers that
harm citizens unless the individual harmed can show
invidious, criminal intent on behalf of the state to harm
that individual directly.
The D.C. Circuit recognized the state-created danger
doctrine as one that does not require a criminal level of
intent to establish liability due to the state affirmatively
taking on additional duties in cases of either created
dangers or custodial control. Butera v. District of
Columbia, 235 F.3d 637, 651 (D.C. Cir. 2001). The court
noted that “something more than negligence but less
than intentional conduct, such as recklessness of gross
negligence” is called for in such cases. Butera, 235 F.3d,
at 651 (citing County of Sacramento v. Lewis, 523 U.S.
833, 849 (1998). The Ninth Circuit generally mirrors
this. See Henry A. v. Willden, 678 F.3d 991 (9th Cir.,
2012). The Second Circuit similarly found a lesser level
of culpable intent necessary where the state itself creates
a foreseeable danger outside of an emergency-response
circumstance. Pena v. DePrisco, 432 F.3d 98, 114 (2nd Cir.
2005). The state can be liable “even if they do not accuse
the defendants of acting with specific intent or desire to
cause physical injury” where the defendants “created a
serious danger by acting with deliberate indifference to
it.” Pena, 432 F.3d at 114.
The Seventh Circuit added two other elements:
“conduct so egregious and culpable that it shocks the

15
conscience” as a “necessary predicate” and additional
element before a court can “find that injury from a statecreated danger amounts to a due process violation.” The
Seventh Circuit in this case required proof of “criminal
recklessness” by an identified individual and combined
it with the Sixth Circuit’s special danger to require
proof of criminal intent to cause a special danger to this
specific individual. App., infra, 7a-11a. The court required
individual defendants “must act with a mens rea akin to
criminal recklessness for constitutional liability to attach.”
Id. Essentially, the Seventh Circuit requires criminal
prosecution of a civil case before liability can ever attach.
That meets neither purpose nor legislative intent of s.1983.
This conflicts with sister circuits, that limit the
application of deliberate indifference to the risk, and
find state created dangers obvious or known to a state
defendant that cause harm constitute conscience shocking
behavior by itself. Deliberate indifference applies to the
danger, for several Circuits. See Henry A. v. Willden, 678
F.3d 991 (9th Cir., 2012). The Third Circuit noted such a
heightened “shocks the conscience standard is limited to
police pursuit cases.” Kneipp, 95 F.3d, at 1207.
The decision below also conflicts with DeShaney.
Under DeShaney, the state knowingly creating a danger
that causes harm constitutes a violation of due process.
Creating a danger, knowingly disregarding that danger,
and causing loss of life, is itself shocking to the conscience.
There is no “shock the conscience” clause in the Fourteenth
Amendment when it is the state itself that causes the loss
of life by its own created danger.

16
Circuits call the “shock the conscience” test imposed
by the lower court here a “troubling, subjective” test.
L.W. v. Grubbs II, 92 F.3d 894, 897 (9th Cir. 1992). Fellow
jurists note the problem with “some exacerbated mental
element” in tests that so widely and wildly vary across
“the relationship between mental states, possible harm,
foreseeable risk, and actual harm” creating “inconsistent
locutions” across the case law. L.W. v. Grubbs II, 92 F.3d,
at 900 (9th Cir. 1992) (Fernandez, J., concurring).
This Court itself did not require “an intent to cause
harm” as the relevant standard of intent unless it was
equivalent to an emergency-response type circumstance.
County of Sacramento, 523 U.S., at 847. Equally, this Court
rejected the heightened standard of “conscious disregard
of a great risk of serious harm” unless the circumstance
required “hurried” action by the state. Id., at 847, 853.
Indeed, in cases like these, of state-created dangers
that were neither the result of emergency responses nor
hurried decisions, but long-time forethought with very
foreseeable risk of this precise type (drowning of small
children in a state-created swimming pond with murky
water, undisclosed sharp cut-offs, and no enforcement
of safety rules for small children), this court imposed a
standard less than both intent to cause harm or conscious
disregard of known risk. Id., at 847-54. This court only
required the standard be above that of simple negligence
but below that of criminal recklessness. Id., at 850-54.
Deliberate indifference can be established in the
D.C. Circuit by awareness of the risk and inadequate
steps to prevent it from causing harm, noting “the State
also owes a duty of protection when its agents create or
increase the danger to an individual.” Butera v. District
of Columbia, 235 F.3d 637, 651 (D.C. Cir. 2001). The D.C.

17
Circuit recognized the state-created danger doctrine
as one that does not require a criminal level of intent to
establish liability due to the state affirmatively taking
on additional duties in cases of either created dangers
or custodial control. Id. The court noted that “something
more than negligence but less than intentional conduct,
such as recklessness of gross negligence” is called for in
such cases. Id. at 651 (citing County of Sacramento v.
Lewis, 523 U.S. 833, 849 (1998).
The Eighth Circuit here disagrees with the decision
below and concurs with sister Circuits. In cases of state
created danger, where the danger is not the product of
an unanticipated emergency reaction, “something less
than unjustifiable intent to harm” is required, but merely
“calculated indifference” suffices. Radecki v. Barela,
146 F.3d 1227, 1232 (10th Cir. 1998). The Ninth Circuit
follows suit. Indifference to a known state created danger
that causes foreseeable harm constitutes a due process
violation. L.W. v. Grubbs, 974 F.2d 119, 123 (9th Cir. 1992).
The decision below conflicts with decisions of this
court, conflicts with Circuit courts, and creates a gap of
protection for ordinary Americans against state created
dangers than take away the most vulnerable lives, even
when the state knowingly creates those dangers and
ignores every protective precaution for safeguarding the
most vulnerable lives in their care.
III. This Court Can Provide Clarity in an Area of Law
that Impacts Citizenry and States Nationwide
This Court should clarify this critical area of law for
the benefit of all. Did a person lose their life, liberty or
property? Critically, was the state a cause of the loss of

18
their life, liberty or property? If so, did they lose their
life, liberty or property by due process of law? Are there
sufficient facts that a jury could conclude so as to each
aspect? If so, liability attaches.
This follows the plain language of the text of the
Amendment, concurs with original intent of both the
amendment and the civil rights law enforcing them, and
gives meaningful guidelines with objective standards
entrusted to a jury to determine. It also avoids the
unmanageable subjective vagaries of “conscienceshocking” super-legislature duties upon courts, the
directionless guidelines that make the lottery of panel
selection or circuit venue the dictate of the outcome and
provides practicable standards for state actors to follow
without imposing general negligence tort liability. When
a state creates a danger that causes loss of life, liberty
or property, the jury determines liability if there is any
evidence a jury could infer shows the danger was either
obvious or known to the state.
If a legislature passed a law that limited liability to
whenever an action would “shock the conscience,” the court
would rightly strike down the law as void for vagueness.
Requiring that no claim can go forward unless that claim
shocks the conscience of the particular court, without
any definition thereof or limitation thereupon, invites the
vagaries of subjective bias of the particular court involved.
As an example here, a court found that a dead kid didn’t
shock the conscience.
The decision below also created a red herring: that
allowing this case to go to the jury (who really should be
the ones to determine if something shocks the conscience

19
or not) somehow makes every accident at every state
facility a violation of due process. That is nonsense. The
danger here wasn’t a nature created lake or ocean, river
or stream, nor was it a concrete pool with four delineated
corners and crystal clear waters; rather, the danger here
was a man-made dangerous murky pond, with sudden
drop-offs, inadequate lifeguards, and refusal to follow
elemental safety protocols, while promising and inviting
the public to attend, and charging them for the privilege.
Though, it should be noted, that if a private pool company
made a swimming pond for kids, invited them in, promised
safety for parents, and charged them for it, then created
a murky pond, with undisclosed sharp drop offs just a few
feet into the kids’ side of the pool, and refused to follow
any of its own safety rules or protocols for young kids, and
a five year old girl died because of it, the swimming pond
owner likely would be in jail in Wisconsin.
While several Circuits expressly find that violation
of established procedures constitute conscience shocking
behavior, the court below rejected that. See Irish, 849
F.3d at, 527. Sister circuits found liability for third party
violence where the state did far less than they did here
to create the danger. Wood v. Ostrander, 879 F.2d 583
(9th Cir. 1989) (leaving drunk in high-crime area); L.W.
v. Grubbs, 974 F.2d 119, 123 (9th Cir. 1992) (left state
nurse alone with known sex-offender); Penilla v. City of
Huntington Park, 115 F.2d 707 (9th Cir., 1997) (cancelling
call to paramedics); Munger v. City of Glasgow, 227 F.3d
1082 (9th Cir. 2000) (ejecting drunk bar patron on a cold
night).
State-created dangers should not be immune from
liability because the state, itself, rather than a third

20
party, causes the harm. The Fourteenth Amendment’
Due Process clause existed to protect citizens from all
the creative ways a wayward state government can cause
harm, not to excuse and exculpate state conduct that
endanger the lives of the most vulnerable amongst us.
CONCLUSION
The state created a man-made pond to swim in,
invited the public to the pond, charged the public for the
privilege of swimming in the pond it publicly promoted as
safe for children, and then created dangerous conditions
for those very children and abandoned every one of their
own safeguards for children, resulting in a young child’s
death. That is not the loss of life by due process of law.
Let a jury decide the remedy. Grant cert.
Respectfully submitted,
Robert E. Barnes
Counsel of Record
Barnes Law, LLP
601 South Figueroa Street, Suite 4050
Los Angeles, CA 90017
(213) 330-3341
robertbarnes@barneslawllp.com
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
seventh circuit, filed october 18, 2019
IN THE United States Court of Appeals
for the Seventh Circuit
No. 18-3524
THE ESTATE OF SWANNIE HER, et al.,
Plaintiffs-Appellants,
v.
CRAIG HOEPPNER, Parks Director for the
City of West Bend, et al.,
Defendants-Appellees.
May 29, 2019, Argued
September 26, 2019, Decided
Appeal from the United States District Court for
the Eastern District of Wisconsin. No. 17-CV-1015 —
Nancy Joseph, Magistrate Judge.
Before K anne, Sykes, and Brennan, Circuit Judges.
Sykes, Circuit Judge. A June afternoon in Wisconsin
took a tragic turn when six-year-old Swannie Her
was found unresponsive on the bottom of a man-made
swimming pond operated by the City of West Bend. She
never regained consciousness and died a few days later.

2a
Appendix A
Swannie’s estate, her mother, and her siblings filed suit
alleging that she died as a result of federal constitutional
and state-law violations by the West Bend Parks Director,
the seven lifeguards who were on duty, and the City. The
constitutional claim arises under 42 U.S.C. § 1983 and
alleges a deprivation of life without due process in violation
of rights secured by the Fourteenth Amendment. The
theory of the claim rests on two contentions: (1) the City’s
swimming pond is a state-created danger and (2) the
defendants acted or failed to act in a way that increased
the danger. A magistrate judge entered summary
judgment for the defendants, ruling that the evidence
is insufficient to permit a reasonable jury to find a dueprocess violation premised on a state-created danger. The
judge relinquished jurisdiction over the state-law claims,
setting up this appeal.
We affirm. Liability for injury from a state-created
danger is an exception to the general rule that the
Due Process Clause confers no affirmative right to
governmental aid. DeShaney v. Winnebago Cty. Dep’t
of Soc. Servs., 489 U.S. 189, 196, 109 S. Ct. 998, 103 L.
Ed. 2d 249 (1989). Our caselaw construes this exception
narrowly, and the judge correctly concluded that this case
falls outside its boundaries. No reasonable jury could find
that the defendants created a danger just by operating
a public swimming pond or that they did anything to
increase the danger to Swannie before she drowned. Nor
was their conduct so egregious and culpable that it “shocks
the conscience,” a necessary predicate for a court to find
that an injury from a state-created danger amounts to a
due-process violation.

3a
Appendix A
I. Background
The City of West Bend owns and operates Regner
Park, a large public area with several recreational options.
During the summer months, patrons can cool off in the
park’s manmade swimming pond for a small fee. Like
other bodies of water with organic floors, the Regner Park
pond is murky. Visibility is limited to roughly six inches
below the surface, and swimmers more than two feet from
shore cannot see the bottom.
The pond is divided into three zones: Zone 1, the
general swimming area, ranges in depth up to a maximum
of five feet. Zone 2, which features a diving raft, is the
center of the pond and reaches a depth of fifteen feet. And
Zone 3, the children’s play area, is no more than three-feet
deep. Ropes and buoys cordon off the three zones; they
also mark points where the water gets deeper. Swimmers
wishing to enter Zone 2—or otherwise enter water deeper
than their armpits—must pass a swim test, at which point
they receive a special wristband signifying that they are
permitted to do so.
Lifeguards employed by the City patrol the pond. Each
lifeguard is certified in basic lifeguarding practices and
receives pond-specific instruction. They also receive the
West Bend Aquatic Manual & Emergency Response Plan,
a guidebook to preventing accidents at the pond. Most
importantly, the manual urges lifeguards to keep close
watch on inexperienced swimmers and small children. The
parties debate whether those surveillance responsibilities
are “mandatory,” as the plaintiffs characterize them, or

4a
Appendix A
if lifeguards “[a]re allowed to use their judgment and
discretion when scanning the water to determine where
to focus their attention,” as the defendants maintain.
On June 11, 2016, the Her family—mother Connie,
her fiancé, and nine of her ten children—gathered in
Regner Park to celebrate a relative’s second birthday.
The party took place at a picnic area near the swimming
pond. Young Swannie arrived at roughly 5 p.m. that
afternoon with two of her siblings. After greeting family
and friends, she donned her bathing suit and obtained
her mother’s permission to swim in the pond. Connie did
not accompany Swannie but rather asked two of her older
children—Evangelin, age 9, and Thvon, age 14—to keep
an eye on their younger sister. Swannie received a general
admission wristband, but she never took the swim test
required to swim in water above her armpits.
The Her children began swimming in Zone 3. At
some point Swannie said she wanted to go see Ekin,
another sibling, in a deeper part of the pond. No one
knows precisely when or where Swannie went beneath
the surface; neither the seven lifeguards on duty nor any
member of the Her family or anyone else at the pond
witnessed it. But at 5:55 p.m. a man swimming in Zone
2 discovered Swannie unresponsive at the bottom of
the pond. He carried her out of the water and called for
help. The lifeguards immediately called 911 and began
resuscitation efforts. Emergency medical responders
took Swannie to a nearby hospital, but she never regained
consciousness and died several days later.

5a
Appendix A
Swannie’s estate, together with Connie and her
surviving children (collectively “the Estate”), filed this
lawsuit the following year. The defendants are Parks
Director Craig Hoeppner, the City and its insurer, and the
seven lifeguards who were on duty that day. The complaint
seeks damages under § 1983 for violation of Swannie’s
Fourteenth Amendment right to due process. The claim
rests on the doctrine of “state-created danger”: the
Estate claims that the defendants created and operated a
dangerously murky pond and failed to follow established
lifeguarding rules, increasing the danger to Swannie. The
suit also raised state-law claims for negligence, wrongful
death, and a violation of Wisconsin’s Safe Place Statute.
The defendants moved for summary judgment, and
the magistrate judge granted the motion, concluding that
the Estate lacks evidence that the defendants created a
danger by operating the swimming pond or increased a
danger by their conduct on the day she drowned. The judge
explained that any factual disputes about the adequacy
of the pond’s safety protocols raised at most a potential
question of negligence, not a violation of due process.
The judge relinquished supplemental jurisdiction over
the state-law claims and entered final judgment for the
defendants.
II. Discussion
We review a summary judgment de novo, construing
the record and drawing all reasonable inferences in
the plaintiffs’ favor as the nonmoving parties. WilsonTrattner v. Campbell, 863 F.3d 589, 593 (7th Cir. 2017).

6a
Appendix A
Summary judgment is warranted if “the movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). We review the magistrate judge’s
decision to relinquish supplemental jurisdiction for an
abuse of discretion. Rivera v. Allstate Ins. Co., 913 F.3d
603, 618 (7th Cir. 2018).
The Fourteenth Amendment provides that “[n]o state
shall ... deprive any person of life, liberty, or property,
without due process of law.” U.S. Const. amend. XIV, § 1.
The Supreme Court has cautioned that the Due Process
Clause “does not transform every tort committed by a
state actor into a constitutional violation.” DeShaney, 489
U.S. at 202. More specifically, the Clause “confer[s] no
affirmative right to governmental aid, even where such
aid may be necessary to secure life, liberty, or property
interests of which the government itself may not deprive
the individual.” Id. at 196.
There are two recognized exceptions to the DeShaney
rule. First, when a public official “affirmatively places a
particular individual in a position of danger the individual
would not otherwise have faced,” the official may be liable
for a due-process violation if injury results. Monfils v.
Taylor, 165 F.3d 511, 516 (7th Cir. 1998) (quotation marks
omitted). The second exception comes into play when
“the state has a ‘special relationship’ with a person, that
is, if the state has custody of a person, thus cutting off
alternative avenues of aid.” Id.
The exception for state-created dangers is at issue
here, but it’s quite narrow and reserved for “egregious”
conduct by public officials. Doe v. Village of Arlington

7a
Appendix A
Heights, 782 F.3d 911, 917 (7th Cir. 2015). A due-process
claim of this kind requires proof of three elements: (1) the
government, by its affirmative acts, created or increased
a danger to the plaintiff; (2) the government’s failure to
protect against the danger caused the plaintiff’s injury;
and (3) the conduct in question “shocks the conscience.”
Flint v. City of Belvidere, 791 F.3d 764, 770 (7th Cir.
2015) (quotation marks omitted). The third element—
conscience-shocking conduct—requires a culpable state
of mind equivalent to deliberate indifference. King v. E.
St. Louis Sch. Dist. 189, 496 F.3d 812, 819 (7th Cir. 2007).
Elsewhere we’ve referred to this as a requirement of
criminal recklessness. See Slade v. Bd. of Sch. Dirs. of
Milwaukee, 702 F.3d 1027, 1033 (7th Cir. 2012).
Viewing the evidence in the light most favorable to
the Estate, we agree with the magistrate judge that the
record falls far short on each of these elements. The Estate
emphasizes that the swimming pond was “murky” and
had poor visibility and “uneven topography.” That’s true
of manmade swimming holes in general, and many natural
lakes as well. There’s no evidence that the Regner Park
swimming pond is distinctively dangerous.
The Estate also points to testimony from the defense
expert describing swimming as an “inherently dangerous
activity.” That’s certainly true. As even experienced
swimmers will concede, any body of water—whether manmade or natural—presents inherent dangers, especially
to children. See id. at 1032 (observing that most adults
understand that “lakes and other natural bodies of water,
even inland water, are dangerous because of currents and
uneven depth, and especially to children”). Swimming,
or participating in any water-based recreational activity

8a
Appendix A
for that matter, exposes participants to risk of injury,
including drowning.
And while operating any public swimming facility
invites swimmers to expose themselves to the dangers
inherent in this activity, liability under the Due
Process Clause doesn’t attach “just because the danger
materializes.” Id. at 1031. After all, “[d]angers to the public
at large are insufficient for constitutional purposes.” See
Buchanan-Moore v. County of Milwaukee, 570 F.3d 824,
828 (7th Cir. 2009). The Estate needs specific evidence that
this particular swimming pond is especially dangerous
for a young child like Swannie. It has none.
In the end, the Estate’s argument boils down to the
remarkable assertion that a municipal swimming pond is
by its nature a state-created danger. That proposition, if
adopted, would turn every tort injury at a public pond or
pool into a constitutional violation. Federal constitutional
claims involving public playgrounds and practice fields
wouldn’t be far behind. Indeed, the Estate’s preferred
result “would potentially set up a federal question
whenever an accident happens during activities sponsored
by the state.” Waybright v. Frederick County, 528 F.3d
199, 208 (4th Cir. 2008). But the Fourteenth Amendment
doesn’t displace state tort law by transforming accidents
at public facilities into federal constitutional claims. See,
e.g., Daniels v. Williams, 474 U.S. 327, 332, 106 S. Ct.
662, 88 L. Ed. 2d 662 (1986) (“Our Constitution ... does
not purport to supplant traditional tort law in laying down
rules of conduct to regulate liability for injuries that attend
living together in society.”).

9a
Appendix A
Perhaps aware that its broad position is untenable,
the Estate falls back on a narrower argument that the
defendants increased a danger to Swannie. But this
theory is no stronger because there’s no evidence that the
defendants actively “did something that turned a potential
danger into an actual one.” Sandage v. Bd. of Comm’rs of
Vanderburgh Cty., 548 F.3d 595, 600 (7th Cir. 2008). The
Estate argues that the City failed to take proper safety
precautions, like dredging the bottom of the pond, and the
lifeguards failed to comply with the park’s “mandatory”
rules involving small children. And it emphasizes evidence
that the pond was especially crowded on the afternoon in
question, and at one point a lifeguard admitting to being
“overwhelmed” by the number of swimmers.
But we’ve explained that DeShaney draws an
“essential distinction between endangering and failing
to protect.” Id. at 599 (emphases added). The former may
amount to a constitutional violation if other facts are
present; the latter is simple negligence. Moreover, no
evidence suggests that the lifeguards disregarded their
training. Each lifeguard was charged with scanning the
swimming pond for signs of trouble and responding as
needed. That Swannie slipped beneath the surface without
being noticed by anyone—lifeguard, family member, or
anybody else at the pond—reflects the heartbreaking
reality of childhood drownings. But it’s not evidence that
the defendants took affirmative steps that created or
increased a danger to Swannie.
The Estate’s difficulty articulating a theory of the
case that might situate this claim within the law of statecreated dangers reflects the fundamental problem with
its position: this is at most a negligence claim. To be sure,

10a
Appendix A
“[n]ot paying enough attention to a child and thus allowing
the child to ... drown is terribly tragic, and possibly even
negligent.” DeAnzona v. City & County of Denver, 222
F.3d 1229, 1236 (10th Cir. 2000). But mere negligence is
“categorically beneath the threshold of constitutional due
process.” County of Sacramento v. Lewis, 523 U.S. 833,
849, 118 S. Ct. 1708, 140 L. Ed. 2d 1043 (1998). Indeed,
“governmental defendants must act with a mens rea akin
to criminal recklessness for constitutional liability to
attach.” Flint, 791 F.3d at 770.
We made this point clear in Slade, another drowning
case brought on a theory of state-created danger. There,
a middle-school student drowned on a field trip to a park
with a large natural lake. 702 F.3d at 1028-29. Swimming
was anticipated; indeed, parents were asked to indicate
when signing the permission slip whether their student
was allowed to swim. The school district had a rule
prohibiting swimming on field trips unless a lifeguard
is present. No lifeguard was present that day, but the
assistant principal let the students swim anyway and a
seventh-grade boy drowned. We noted that the assistant
principal “was negligent and her negligence enhanced the
danger inherent in swimming in a lake: she disobeyed the
rule requiring the presence of a lifeguard even though
she knew that portions of the designated swimming area
were so deep that the water was over the head of some
of the kids.” Id. at 1032. While that negligence may have
increased the risk of danger to the student, it was not the
type of reckless, conscience-shocking conduct that might
be actionable as a constitutional violation. Id. at 1032-33.
Slade involved far more blameworthy conduct than
what occurred here, and still we rejected the due-process

11a
Appendix A
claim. Despite the tragic loss of life, Slade hewed closely
to the principle that the Due Process Clause cannot be
interpreted “to impose federal duties that are analogous
to those traditionally imposed by state tort law.” Collins v.
City of Harker Heights, 503 U.S. 115, 128, 112 S. Ct. 1061,
117 L. Ed. 2d 261 (1992). We do the same here. On this
record, no reasonable jury could find that the defendants
created or increased a danger to Swannie or that they
were deliberately indifferent to the danger. The judge
was right to enter summary judgment for the defendants.
A ffirmed

12a
Appendixand
B order of the
Appendix b — decision
united states district court for the
eastern district of wisconsin,
filed october 30, 2018
United States District Court
Eastern District of Wisconsin
Case No. 17-CV-1015
ESTATE OF SWANNIE HER, et al.,
Plaintiffs,
v.
KRAIG SADOWNIKOW, et al.,
Defendants.
October 30, 2018, Decided
October 30, 2018, Filed
DECISION AND ORDER ON DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT
This action arises from the tragic drowning death
of six-year-old Swannie Her on June 11, 2016 at the
City of West Bend’s Regner Park. The plaintiffs are
the estate of Swannie Her, her parents, and her nine
siblings (collectively “the plaintiffs”). The defendants are
the City of West Bend (“the City”), the City’s insurer,
Parks and Recreation Director Craig Hoeppner, and the
lifeguards working the day of the incident (collectively

13a
Appendix B
“the defendants”). The plaintiffs allege federal and state
law causes of action against the defendants, including
a “Fourteenth Amendment Deprivation,” negligence,
violation of Wisconsin’s Safe Place Statute, and wrongful
death. (Amended Complaint, Docket # 17.) The defendants
have moved for summary judgment arguing that the
plaintiffs cannot show a constitutional violation under the
Fourteenth Amendment. For the reasons explained below,
the defendants’ motion for summary judgment is granted.
UNDISPUTED FACTS
The City of West Bend’s Regner Park pond is a manmade pond that holds natural water that is pumped from
the spring into the pond from two wells. (Pls.’ Proposed
Findings of Fact (“PPFOF”) ¶ 1, Docket # 60 and Defs.’
Response to PPFOF (“Defs.’ Resp.”) ¶ 1, Docket # 64.)
The pond is always murky with a muck/mud bottom. The
bottom of the pond cannot be seen more than two feet in
from the shore and visibility beneath the surface is less
than six inches; lifeguards could not see more than a
foot in front of their faces while swimming. (Id. ¶ 2.) The
pond is divided into a children’s play area, a diving raft
area, and a general area; for lifeguarding responsibilities,
the general area is Zone 1; the diving raft area is Zone
2; and the children’s play area is Zone 3. (Id. ¶ 3.) Small
children would generally stay on the east side of the pond
in the part known as Zone 3, which is marked by a rope
and buoys. (Id. ¶ 4.) On the north and south sides of Zone
2, there are sandy beaches. There is a gradual slope in
the pond to the deep water, and a rope with buoys where
the water gets deeper; the ropes are where the water is

14a
Appendix B
approximately eight feet deep on the north side of the
pond and approximately six feet deep on the south side
of the pond. (Id. ¶ 5.)
On June 11, 2016, Connie Her went to Regner Park to
attend her two-year-old nephew’s birthday party. (Defs.’
Proposed Findings of Fact (“DPFOF”) ¶ 2, Docket # 38
and Pl.’s Resp. to DPFOF (“Pls.’ Resp.”) ¶ 2, Docket # 61.)
The birthday party took place at a picnic area near the
sand/grassy area adjacent to the pond. (Id. ¶ 3.) Connie
Her initially brought six of her ten children and her
boyfriend/fiancé to the pond. (Id. ¶¶ 4-5.)
At approx imately 3:0 0 p.m., Connie Her, her
boyfriend/fiancé, and two of her children left Regner
Park to go pick up her three other children, including sixyear-old Swannie Her. (Id. ¶ 6.) At that time, those three
children lived with their father, Chong Her. (Id.) Connie
Her informed Chong Her that “the kids were going to the
birthday party” and that “there was a swimming pond at
the park that [they] were going to go to.” (Id. ¶ 8.)
After picking up the children, Connie Her, her
boyfriend/fiancé, and the five children drove back to
Regner Park and arrived at approximately 5:00 p.m. (Id.
¶ 9.) After they arrived back at Regner Park, they went
to the area where the birthday party was organized to
greet family and friends. (Id. ¶ 12.) Shortly after greeting
family and friends, Swannie put her swimsuit on and
obtained Connie Her’s permission to go in the pond with
her siblings. (Id. ¶ 13.) Connie Her did not accompany
Swannie to the pond. (Id. ¶ 14.) At some point, Swannie

15a
Appendix B
told her siblings that she wanted to go swim and play with
her other sibling who was in the deeper area of the pond.
(Id. ¶ 37.) The parties dispute when Swannie went beneath
the surface of the water; however, the parties agree that
Swannie was found unresponsive at approximately 5:50
p.m. at the bottom of the pond by an adult male patron
in water up to his chest, and a lifeguard saw the patron
carrying Swannie toward the south side of Zone Two
after she heard him yelling for help. (PPFOF ¶¶ 62, 67
and Defs.› Resp. ¶¶ 62, 67.) After Swannie was pulled from
the pond, she did not regain a pulse, start breathing, or
regain consciousness. (Id. ¶ 65.)
SUMMARY JUDGMENT STANDARD
Summary judgment is appropriate if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a); see also Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505, 91 L. Ed.
2d 202 (1986); Celotex Corp. v. Catrett, 477 U.S. 317, 324,
106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986). “Material facts”
are those under the applicable substantive law that “might
affect the outcome of the suit.” See Anderson, 477 U.S.
at 248. The mere existence of some factual dispute does
not defeat a summary judgment motion. A dispute over a
“material fact” is “genuine” if “the evidence is such that a
reasonable jury could return a verdict for the nonmoving
party.” Id.
In evaluating a motion for summary judgment, the
court must draw all inferences in a light most favorable to

16a
Appendix B
the nonmovant. Matsushita Electric Industrial Co., Ltd.
v. Zenith Radio Corp., 475 U.S. 574, 587, 106 S. Ct. 1348,
89 L. Ed. 2d 538 (1986). However, when the nonmovant is
the party with the ultimate burden of proof at trial, that
party retains its burden of producing evidence which
would support a reasonable jury verdict. Celotex Corp.,
477 U.S. at 324. Evidence relied upon must be of a type
that would be admissible at trial. See Gunville v. Walker,
583 F.3d 979, 985 (7th Cir. 2009). To survive summary
judgment, a party cannot rely on his pleadings and “must
set forth specific facts showing that there is a genuine
issue for trial.” Anderson, 477 U.S. at 248. “In short,
‘summary judgment is appropriate if, on the record as a
whole, a rational trier of fact could not find for the nonmoving party.’” Durkin v. Equifax Check Services, Inc.,
406 F.3d 410, 414 (7th Cir. 2005) (citing Turner v. J.V.D.B.
& Assocs., Inc., 330 F.3d 991, 994 (7th Cir. 2003)).
ANALYSIS
The defendants move for summary judgment arguing
that the plaintiffs cannot show a constitutional violation
under the Fourteenth Amendment and thus the plaintiffs’
federal claim should be dismissed. Without the federal
claim, the defendants argue I should decline exercising
supplemental jurisdiction over the plaintiffs’ remaining
state law claims. The plaintiffs argue that they do show
a constitutional violation under the state-created danger
exception to the Due Process Clause. (Pls.’ Br. at 5-15,
Docket # 59.)

17a
Appendix B
1. Applicable Law: State-Created Danger Exception
The Due Process Clause of the Fourteenth Amendment
provides that “[n]o State shall . . . deprive any person of
life, liberty, or property, without due process of law.” The
Clause is phrased as a limitation on the State’s power to
act, not as a guarantee of certain minimal levels of safety
and security. DeShaney v. Winnebago Cty. Dep’t of Soc.
Servs., 489 U.S. 189, 195, 109 S. Ct. 998, 103 L. Ed. 2d 249
(1989). In DeShaney, the Supreme Court found that “the
Due Process Clause[] generally confer[s] no affirmative
right to governmental aid, even where such aid may be
necessary to secure life, liberty, or property interests
of which the government itself may not deprive the
individual.” Id. at 196. There are, however, two exceptions
to DeShaney’s general rule. First, when the state has a
“special relationship” with the person such as “when it
has custody over a person, it must protect him because no
alternate avenues of aid exist.” Second, under the statecreated danger exception, “liability exists when the state
affirmatively places a particular individual in a position
of danger the individual would not otherwise have faced.”
Doe v. Vill. of Arlington Heights, 782 F.3d 911, 916 (7th
Cir. 2015) (internal citation and quotation omitted).
To recover under the state-created danger exception,
a plaintiff must demonstrate that: (1) the state, by its
affirmative acts, created or increased a danger faced by an
individual; (2) the failure on the part of the state to protect
an individual from such a danger is the proximate cause
of the injury to the individual; and (3) the state’s failure to
protect the individual must shock the conscience. King ex

18a
Appendix B
rel. King v. E. St. Louis Sch. Dist. 189, 496 F.3d 812, 81718 (7th Cir. 2007). “The state-created danger exception is
a narrow one.” Doe, 782 F.3d at 917. The Seventh Circuit
explained that the state-created danger exception “must
not be interpreted so broadly as to erase the essential
distinction between endangering and failing to protect and
thus circumvent DeShaney’s general rule. When courts
speak of the state’s ‘increasing’ the danger of private
violence, they mean the state did something that turned
a potential danger into an actual one, rather than that it
just stood by and did nothing to prevent private violence.”
Id. (internal quotation and citation omitted). Thus, the
cases in which the Seventh Circuit has either found or
suggested that liability attaches under the state-created
danger exception are “rare and often egregious.” Id.
Several cases illustrate both the narrowness of the
exception and the egregiousness of the state conduct
contemplated by the exception. In Monfils v. Taylor, 165
F.3d 511 (7th Cir. 1998), Monfils had tipped off the police
to a thief at his workplace in a phone call that the police
recorded. He repeatedly begged the police not to release
the tape to anyone because the thief was a violent person
who would recognize his voice. He was assured it would
not be released. The thief, however, requested a copy of
the tape from the police, and a policeman who did not know
about Monfils’ fears gave it to him. The thief discovered
that Monfils was the informant and killed him. Id. at
513-15. The court upheld a jury verdict for the plaintiff
because Monfils was safe (or at least much safer) before
the police released the tape, without which the thief would
have been unlikely to identify the informant. By the act

19a
Appendix B
of releasing the tape, the police created the danger to
Monfils. Id. at 518.
In Reed v. Gardner, 986 F.2d 1122 (7th Cir. 1993), a
drunk driver crossed the center line of the highway and
crashed into the Reeds’ car. Id. at 1123. Earlier that day,
the defendant police officers had arrested the driver of
the vehicle, leaving a drunk passenger behind. Id. The
passenger became the drunk driver who caused the headon collision approximately two hours later. Id. The court
found that, although it was hesitant to find § 1983 liability
outside the custodial setting, “plaintiffs such as the Reeds
may state claims for civil rights violations if they allege
state action that creates, or substantially contributes
to the creation of, a danger or renders citizens more
vulnerable to a danger that they otherwise would have
been.” Id. at 1126. The court found that by “removing a
safe driver from the road and not taking steps to prevent
a dangerous driver from taking the wheel, the defendants
arguably changed a safe situation into a dangerous one.”
Id. at 1127.
In Ross v. United States, 910 F.2d 1422 (7th Cir. 1990),
a twelve-year-old boy drown in Lake Michigan during the
Waukegan Lakefront Festival. Id. at 1424. After the boy
fell into the water, his friends ran for help. Two lifeguards,
two firefighters, and a police officer responded, as well
as two scuba-diving civilians with a boat. Before any
rescue attempt could begin, however, the Lake County
Deputy Sheriff arrived in a marine patrol boat. The city
of Waukegan and Lake County had previously entered
into an intergovernmental agreement that required

20a
Appendix B
the county to provide all police services in the entities’
concurrent jurisdiction on Lake Michigan. Under its
authority to police the lake, the county and its sheriff
had promulgated a policy that directed all members of
the sheriff’s department to prevent any civilian from
attempting to rescue a person in danger of drowning in
the lake. This policy contemplated that only divers from
the city of Waukegan Fire Department could carry out
such a rescue. With this policy in mind, the Deputy Sheriff
ordered all the persons then on the scene to cease their
rescue efforts. When the civilian scuba divers stated
that they would attempt the rescue at their own risk, the
Deputy Sheriff responded that he would arrest them upon
their entry into the water and even positioned his boat
to prevent their dive. A Waukegan police officer agreed
that the Deputy Sheriff had authority over the scene and
advised his fellow city employees that they should heed
the Deputy Sheriff’s instructions. Id. at 1424-25. The court
found that the county’s policy of cutting off private aid
to drowning victims led to the deprivation of the child’s
constitutionally protected right to life. Id. at 1431.
Two over-arching themes are apparent in these cases
and similar cases falling under this exception. First, the
cases involve the state either placing a person in a situation
in which he is endangered by other private actors or the
state escalates a person’s situation from potential danger
to actual danger. Second, the state’s conduct which places
the person in danger or escalates the person’s danger is
egregious, as to “shock the conscience.”

21a
Appendix B
2. Application to This Case
In this case, the plaintiffs argue that the statecreated exception applies because the City of West Bend
both created and increased the danger to Swannie. The
plaintiffs argue that the Regner Park pond was a manmade pond and that the City created the danger by
creating a murky pond with almost zero visibility below
the water’s surface and unseeable topography across the
bottom. (Pls.’ Br. at 6.)
Even drawing all reasonable inferences in the light
most favorable to the plaintiffs, as I must, the evidence
is insufficient for a jury to conclude that the defendants
created the danger to Swannie. It is true that the Regner
Park pond is a man-made body of water with poor visibility
and uneven topography, run by the City of West Bend.
Moreover, no one disputes that swimming, whether in
a swimming pool, man-made pond, or in a naturally
occurring body of water, has inherent risks involved,
including the risk of drowning. See Slade v. Bd. of Sch.
Directors of City of Milwaukee, 702 F.3d 1027, 1032 (7th
Cir. 2012) (“It is well known to most adults that lakes
and other natural bodies of water, even inland water, are
dangerous because of currents and uneven depth, and
especially to children.”). But the mere fact that the state
built a swimming facility, whether a pool or a man-made
pond, does not automatically create constitutional liability.
Otherwise, every case involving an injury that occurred in
a state-created swimming facility could automatically be
brought in federal court. See Slade v. Bd. of Sch. Directors
of the City of Milwaukee, 871 F. Supp. 2d 829, 833 (E.D.

22a
Appendix B
Wis. 2012), aff’d sub nom. Slade, 702 F.3d 1027 (quoting
Waybright v. Frederick Cnty., Maryland, 528 F.3d 199,
208 (4th Cir. 2008) (“The state-created danger theory is
not so broad that it mandates a ‘federal displacement of
state authority over state activities’; otherwise, it would
‘potentially set up a federal question whenever an accident
happens during activities sponsored by the state.’”).
The evidence is also insufficient to show that the
defendants increased the danger to Swannie. The
plaintiffs argue the defendants increased the danger to
Swannie by failing to take proper safety precautions, such
as failing to dredge the muck from the bottom of the pond,
leaving the bottom of the pond uneven with unexpected
drop-offs in an area open to small children, encouraging
small children to enter the pond in a designated area that
allowed access to a dangerous “deep well,” not separating
the children’s area from the deeper areas, not putting
buoys in areas that marked off depth changes, not creating
a formal entrance where persons were informed of the
safety rules, and not properly training the lifeguards.
(Pls.’ Br. at 9.) The plaintiffs further argue that the
lifeguards increased the danger to Swannie because the
lifeguards were responsible for announcing pool rules, yet
Swannie’s mother was never advised of the rules and the
very fact that lifeguards were posted at the pond provided
“an aura of safety to small children entering the Murky
pond and gave Swannie’s mother the false impression that
the lifeguards would be watching out for Swannie while in
the Murky pond.” (Pls.’ Br. at 10.) The plaintiffs are also
critical of the training given to the lifeguards and the
fact that one lifeguard, Abigail Ehmke, testified that she

23a
Appendix B
felt “overwhelmed” that day and could not scan her zone
properly. (Pls.’ Br. at 11-14.)
The plaintiffs argue that Swannie’s case is closely akin
to the situation in White v. Rochford, 592 F.2d 381 (7th
Cir. 1979). In White, three minor children were riding in
an automobile driven by the children’s uncle. Id. at 382.
The uncle was stopped and arrested by police for drag
racing. Id. Despite the uncle’s pleading with the officers
to take the children to the police station or to a phone
booth so that they could contact their parents, the officers
refused to provide any such aid. Id. Rather, the officers
left the children in an abandoned automobile on the side of
the road. Id. Under exposure of cold, the children finally
realized that they had no alternative but to leave the car,
cross eight lanes of traffic, and wander on the freeway
at night in search of a telephone. Id. The plaintiffs argue
that as in White, the defendants left Swannie to “navigate
the Murky pond in a potentially life-threatening situation
that lifeguards were specifically trained to identify and
prevent.” (Pls.’ Br. at 9.)
White, however, is not helpful to the plaintiffs’ case.
In White, the court noted that “the police could not avoid
knowing that, absent their assistance, the three children
would be subjected to exposure to cold weather and
danger from traffic.” 592 F.2d at 385. The concurring
opinion further explained that the children were under the
protection of their uncle. Id. at 387. Arresting the uncle
and providing the children no alternative protection left
them exposed to the danger of the high-speed expressway
and the cold. Id. In this case, Swannie went to the pond

24a
Appendix B
in the custody and care of her mother. At no time did the
defendants arrest Swannie’s mother or any other state
actor interfere with her mother’s custody. Although
the plaintiffs argue that having lifeguards gave Connie
Her a false sense of security that the lifeguards would
be watching Swannie, at no time was Swannie in the
lifeguards’ custody. So unlike in White, the defendants
never took away Swannie’s protector, leaving her to
navigate the murky pond.
This case is more like Slade. In Slade, a seventhgrade student drown while on a school field trip to Mauthe
Lake. The plaintiff argued that the defendants were liable
based on the state-created danger exception. The plaintiff
argued the defendants placed the student in danger by
planning and facilitating a trip that allowed swimming in
Mauthe Lake. 871 F. Supp. 2d at 832. In dismissing the
plaintiff’s claims, the court reasoned that the defendants
did not require the student to swim and the student
could have stayed out of the water without any adverse
consequences. Id. In other words, the state did not force
the student into the water or propel him into danger. Id.
Similarly, the defendants did not force Swannie into the
water. She could have stayed out of the water without
adverse consequences.
As the Seventh Circuit stated in Doe, the statecreated danger exception is narrow, reserved for those
rare and egregious cases. 782 F.3d at 917. The plaintiffs
argue they need not show the defendants’ actions “shock
the conscience” at summary judgment, citing the Seventh
Circuit’s pattern jury instruction 7.21 in support. (Pls.’ Br.

25a
Appendix B
at 11.) But the comments to pattern jury instruction 7.21
do not state that a plaintiff need not show the defendant’s
actions “shocks the conscience”; rather, it affirms this
requirement. See 7.21f (“A state-created-danger claim
is a ‘substantive’ due process claim, and as a result the
cases say the plaintiff must establish that the defendant’s
action ‘shocks the conscience.’”). While the Seventh Circuit
in Slade expressed displeasure with the term “shocks
the conscience” as a touchstone of liability because of its
tendency to “complexify” the issue, 702 F.3d at 1033, the
court did not do away with the element. See McGinnis
v. Muncie Cmty. Sch. Corp., No. 11-CV-1125, 2013 U.S.
Dist. LEXIS 79548, 2013 WL 2456067, at *8 (S.D. Ind.
June 5, 2013) (explaining that while Judge Posner in
Slade expressed the court’s unhappiness with the use of
the terms “affirmative act” and “shocks the conscience”
because of the difficulties defining the terms, the court
“implicitly recognizes that the ‘shocks the conscience’ test
is just a complicated term for the test he articulates”).
Although this is clearly a tragic case, plaintiffs have not
shown conduct on the part of the state that is so “clearly
deserving of universal reprobation” that it “shocks the
conscience.” White, 592 F.2d at 385-86.
Finally, it is important to note that neither negligence
nor gross negligence is sufficient for liability under the
Due Process Clause. See Salazar v. City of Chicago, 940
F.2d 233, 238 (7th Cir. 1991). The plaintiffs do not allege
that the City had absolutely no safety measures in place at
the pond. There were lifeguards, there were guidelines in
place for the lifeguards to follow to ensure patron safety,
and the pond was divided into zones with roping to mark

26a
Appendix B
the deeper areas. What the plaintiffs argue is that the
defendants could have had more safety features in place
to make the Regner Park pond a safer swimming facility.
Whether the defendants failed to have sufficient safety
measures in place is a question of whether the defendants
failed to exercise ordinary care under the circumstances.
This is a question of negligence, not a due process violation.
For these reasons, the defendants’ motion for summary
judgment is granted as to the plaintiffs’ Fourteenth
Amendment claim as to the individual defendants and
the claim is dismissed. Because there is no underlying
constitutional injury, all claims alleged under Monell
v. New York City Dept. of Soc. Servs., 436 U.S. 658, 98
S. Ct. 2018, 56 L. Ed. 2d 611 (1978) are also dismissed.
See Thompson v. Boggs, 33 F.3d 847, 859 (7th Cir. 1994)
(“[T]o prevail on a Monell claim, the plaintiff must
establish . . . that he suffered a constitutional injury.”).
Without the Fourteenth Amendment claim, all that
remains are the plaintiffs’ state law claims. I will follow
the general rule by relinquishing jurisdiction over the
supplemental state law claims. See Redwood v. Dobson,
476 F.3d 462, 467 (7th Cir. 2007) (“A court that resolves
all federal claims before trial normally should dismiss
supplemental claims without prejudice.”). Thus, the
plaintiffs’ state law claims are dismissed without prejudice.
CONCLUSION
This case is indisputably tragic, and nothing in this
decision is intended to minimize the tragedy of the loss

27a
Appendix B
of six-year-old Swannie. The Seventh Circuit has found,
however, that the state-created danger exception is a
narrow one, generally reserved for rare and egregious
cases. Even drawing all reasonable inferences in the light
most favorable to the plaintiffs, the evidence is insufficient
for a jury to conclude that the defendants placed Swannie
in danger or transformed her potential danger to actual
danger. Thus, the defendants’ motion for summary
judgment as to the plaintiffs’ Fourteenth Amendment
claim is granted. I decline to exercise supplemental
jurisdiction over the plaintiffs’ pendent state law claims.
ORDER
NOW, THEREFORE, IT IS ORDERED that the
defendants’ motion for summary judgment (Docket # 36)
is GRANTED. The plaintiffs’ Fourteenth Amendment
claim (First Cause of Action of Amended Complaint) is
dismissed. Plaintiffs’ state law claims (Second, Third,
and Fourth Causes of Action of Amended Complaint) are
dismissed without prejudice.
IT IS FURTHER ORDERED that the defendants’
motion to exclude expert testimony (Docket # 42) is
MOOT.
IT IS FURTHER ORDERED that the clerk of court
will enter judgment accordingly.
Dated at Milwaukee, Wisconsin this 30th day of
October, 2018.

28a
Appendix B
BY THE COURT:
/s/ Nancy Joseph		
NANCY JOSEPH
United States Magistrate Judge

